No. ______

IN THE

SUPREME COURT OF THE UNITED STATES
JENNIFER MAE LEVIN,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.

On Petition for Writ of Certiorari
to the Florida Fifth District Court of Appeal
APPENDIX TO
PETITION FOR WRIT OF CERTIORARI

MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

TABLE OF CONTENTS
Document

Page

1. November 26, 2019, opinion of the Florida
Fifth District Court of Appeal. . . . . . . . . . . A-3
2. January 19, 2018, Judgment of the Florida
Seventh Judicial Circuit Court. . . . . . . . . . A-5
3. January 19, 2018, Sentence of the Florida
Seventh Judicial Circuit Court. . . . . . . . . . A-8
4. Excerpt of Transcript of December 18, 2017,
Trial, pages 325-329. . . . . . . . . . . . . . . . . . A-25
5. Excerpt of Transcript of December 18, 2017,
Trial, pages 338-340. . . . . . . . . . . . . . . . . . A-30
6. Excerpt of Transcript of December 19, 2017,
Trial, pages 537-547. . . . . . . . . . . . . . . . . . A-35

A-2

IN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA
FIFTH DISTRICT

NOT FINAL UNTIL TIME EXPIRES TO
FILE MOTION FOR REHEARING AND
DISPOSITION THEREOF IF FILED

JENNIFER MAE LEVIN,
Appellant,
v.

Case No. 5D18-234

STATE OF FLORIDA,
Appellee.
________________________/
Decision filed November 26, 2019

Appeal from the Circuit Court

A-3

for St. Johns County,
Howard M. Maltz, Judge.

Michael Ufferman of Michael Ufferman
Law Firm, P.A., Tallahassee, for Appellant.

Ashley Moody, Attorney General,
Tallahassee, and Kristen L. Davenport,
Assistant Attorney General, Daytona
Beach, for Appellee.

PER CURIAM.
AFFIRMED.

EISNAUGLE, HARRIS, JJ., and STROWBRIDGE,
P.L., Associate Judge, concur.

A-4

IN THE CIRCUIT COURT
OF THE SEVENTH JUDICIAL CIRCUIT
IN AND FOR ST. JOHNS COUNTY

State of Florida

Division: 56

vs.
JENNIFER MAE LEVIN
Defendant
SSN: [redacted]
JUDGMENT
The defendant, JENNIFER MAE LEVIN, being
personally before this court represented by JOEL N
LEPPARD,

MITCHELL

STONE,

AND

LEWIS

LOCKETT, the attorney of record, and the state
represented by MITCHELL DAVID BISHOP, and
having been tried and found guilty to the following
crime(s):

A-5

Count
1

Crime

Offense Statute

RECKLESS DRIVING-

316.192 3c1

DAMAGE TO PROPERTY

Deg of

Case Number

OBTS

16002071CFMA

5504006617

Crime

Offense Statute

Crime
F

M

Count
6

DUI MANSLAUGHTER

Deg of

316.193 3c3a

Case Number

OBTS

16002071CFMA

8888888888

Crime
S

F

X and no cause being shown why the defendant
should not be adjudicated guilty, IT IS ORDERED

A-6

THAT the defendant is hereby ADJUDICATED
GUILTY of the above crime(s).

X

and being a qualified offender pursuant to s.

943.325, the defendant shall be required to submit
DNA samples as required by law.

___ and good cause being shown, IT IS ORDERED
THAT ADJUDICATION OF GUILT BE WITHHELD.

DONE AND ORDERED in open court in St. Johns
County, Florida, this Friday, January 19, 2018.

[signature of Judge Maltz]
HOWARD M. MALTZ, Circuit Court Judge

A-7

SENTENCE
(As to Count I)

The defendant, being personally before this court,
accompanied by JOEL N LEPPARD, MITCHELL
STONE, AND LEWIS LOCKETT, the defendant’s
attorney of record, and having been adjudicated guilty
herein, and the court having given defendant an
opportunity to be heard and to offer matters in
mitigation of sentence, and to show cause why the
defendant should not be sentenced as provided by law,
and no cause bring shown (check one if applicable)

___ and the Court having on ______ deferred imposition
of sentence until this date.

___ and the Court having previously entered a

A-8

judgment in this case on _______ now resentences the
defendant.

___ and the Court having placed defendant on
probation/community control and having subsequently
revoked the defendant’s probation/community control.
_______

It Is the Sentence of the Court That:

___ The defendant pay a fine of $ ______, pursuant to
section 775.083, Florida Statutes, plus $ _____ as the
5% surcharge required by section 938.04, Florida
Statutes

___ The defendant is hereby committed to the custody
of the Department of Corrections.

A-9

X The defendant is hereby committed to the custody
of the Sheriff of St. Johns County, Florida.

___ The defendant is sentenced as a youthful offender
in accordance with section 958.04, Florida Statutes.

To Be Imprisoned (Check one; unmarked
sections are inapplicable):

___ For a term of natural life.

X For a term of 364 DAYS as to each count above.

___ Said SENTENCE SUSPENDED for a period of
______ subject to conditions set forth in this order.

A-10

If “split” sentence, complete the appropriate
paragraph.

___ Followed by a period of _______ of community
control under the supervision of the Department of
Corrections according to the terms and conditions of
supervision set forth in a separate order entered
herein.

___ However, after serving a period of _______
imprisonment in, ________ the balance of the sentence
shall be suspended and the defendant shall be place on
probation/community control for a period ________ of
under supervision of the Department of Corrections
according

to

the

terms

and

conditions

of

probation/community control set forth in a separate
order entered herein.

A-11

In the event the defendant is ordered to serve
additional split sentences, all incarceration portions
shall be satisfied before the defendant begins service of
the supervision terms.

A-12

SENTENCE
(As to Count VI)

The defendant, being personally before this court,
accompanied by JOEL N LEPPARD, MITCHELL
STONE, AND LEWIS LOCKETT, the defendant’s
attorney of record, and having been adjudicated guilty
herein, and the court having given defendant an
opportunity to be heard and to offer matters in
mitigation of sentence, and to show cause why the
defendant should not be sentenced as provided by law,
and no cause bring shown (check one if applicable)

___ and the Court having on ______ deferred imposition
of sentence until this date.

___ and the Court having previously entered a

A-13

judgment in this case on _______ now resentences the
defendant.

___ and the Court having placed defendant on
probation/community control and having subsequently
revoked the defendant’s probation/community control.
_______

It Is the Sentence of the Court That:

___ The defendant pay a fine of $ ______, pursuant to
section 775.083, Florida Statutes, plus $ _____ as the
5% surcharge required by section 938.04, Florida
Statutes

X The defendant is hereby committed to the custody
of the Department of Corrections.

A-14

The defendant is hereby committed to the custody
of the Sheriff of St. Johns County, Florida.

___ The defendant is sentenced as a youthful offender
in accordance with section 958.04, Florida Statutes.

To Be Imprisoned (Check one; unmarked
sections are inapplicable):

___ For a term of natural life.

X For a term of 15 YEARS as to each count above.

___ Said SENTENCE SUSPENDED for a period of
______ subject to conditions set forth in this order.

A-15

If “split” sentence, complete the appropriate
paragraph.

___ Followed by a period of _______ of community
control under the supervision of the Department of
Corrections according to the terms and conditions of
supervision set forth in a separate order entered
herein.

___ However, after serving a period of _______
imprisonment in, ________ the balance of the sentence
shall be suspended and the defendant shall be place on
probation/community control for a period ________ of
under supervision of the Department of Corrections
according

to

the

terms

and

conditions

of

probation/community control set forth in a separate
order entered herein.

A-16

In the event the defendant is ordered to serve
additional split sentences, all incarceration portions
shall be satisfied before the defendant begins service of
the supervision terms.

A-17

SPECIAL PROVISIONS
(As to Count I & VI )
By appropriate notation, the following provisions apply
to the sentence imposed:

Other Provisions:

Retention of Jurisdiction
____ The court retains jurisdiction over the defendant
pursuant to Jurisdiction section 947.16(4), Florida
Statutes (1983)

Jail Credit
X It is further ordered that the defendant shall be
allowed a total of 34 days as credit for time
incarcerated before imposition of this sentence.

A-18

X Your Driver’s License is ___ Suspended
X Revoked for LIFE __ Day(s) ___Month(s)
___ Year(s) ___ Pursuant to 322.055. ___ The Court
has directed the department to issue a license for
driving privileges restricted to business or employment
purposes only, as defined bys. 322.271, if the person is
otherwise qualified for such a license. Please know that
in no case shall a restricted license be available until
6 months of the suspension of revocation period has
expired.

Other:
X 4 YEAR MIN/MAND ON CT VI
___ TIER Program.

Restitution:
___ No restitution ordered.

A-19

___ Restitution Ordered. To be paid in accordance with
separate Restitution Order.
___ Jurisdiction is reserved to determine restitution
upon motion of the State.

Credit for Time Served In Resentencing after Violation
of Probation Or Community Control
___ It is further ordered that the defendant be allowed
______ days time served between the original date of
arrest as a violator following release from prison to the
date of resentencing. The Department of Corrections
shall apply original jail time credit and shall compute
and apply credit for time served and unforfeited gain
time previously awarded on case/count ____ (Offenses
committed before October 1, 1989).

___ It is further ordered that the defendant be allowed

A-20

___ days time served between date of arrest as a
violator following release from prison to the date of
re-sentencing. The Department of Corrections shall
apply original jail time credit and shall compute and
apply credit for time served on case/count (Offenses
committed between October 1, 1989, and December 31,
1993).

___ The Court deems the unforfeited gain time
previously awarded on the above case/count forfeited
under section 948.06(7).

___ The Court allows unforfeited gain time previously
awarded on the above case/count. (Gain time may be
subject to forfeiture by the Department of Corrections
under section 944.28(1)).

A-21

___ It is further ordered that the defendant be allowed
____ days time served between date of arrest as a
violator following release from prison to the date of
re-sentencing. The Department of Corrections shall
apply original jail time credit and shall compute and
apply credit for time served only pursuant to section
921.0017, Florida Statutes, on case/count (Offenses
committed on or after January 1, 1994)

Consecutive/Concurrent As To Other Counts
___ It is further ordered that the sentence imposed for
this count shall run (check one)
___ Consecutive to X Concurrent with sentence set
forth in count l of this case.

Consecutive/Concurrent As To Other Convictions
___ It is further ordered that the composite term of all

A-22

sentences imposed for the counts specified in this order
shall run (check one) ___ consecutive to ___ concurrent
with the following: (check one)
___ Any active sentence being served.
___ Specific sentences: _____ .

In the event the above sentence is to the Department
of Corrections, the Sheriff of St. Johns County, Florida,
is hereby ordered and directed to deliver the defendant
to the Department of Corrections at the facility
designated by the department together with a copy of
this judgment and sentence and any other document
specified by Florida Statute.

The defendant in open court was advised of the right to
appeal from this sentence by filing notice of appeal
within 30 days from this date with the clerk of this

A-23

court and the defendant’s right to assistance of counsel
in taking the appeal at the expense of the State on
showing of indigency.

In imposing the above sentence, the court further
recommends ______ .

DONE AND ORDERED in open court at St. Johns
County, Florida this Friday, January 19, 2018.

[signature of Judge Maltz]
HOWARD M. MALTZ, Circuit Court Judge

A-24

Excerpt of Transcript of December 18, 2017, Trial,
pages 325-329
Q

Was it eventually determined there was

nothing more that could be done?
A

Yes.

Q

And did she pass away?

A

Yes.

Q

When was that?

A

That same evening.

Q

Okay. Did you pronounce the time of

death?
A

I did.

Q

What time was that?

A

That, I don’t remember. It was, I think,

11-something that night. Let me find it.
I’m sorry. I just don’t have a recollection
of the exact time.

A-25

I don’t see it.
MR. BISHOP: May I approach, Your
Honor?
THE COURT: You may.
A

Is that record in here?

BY MR. BISHOP:
Q

Yes.

A

The time of death was 11:18 p.m.

Q

Were Ms. Morand’s injuries consistent

with her having been in a motor vehicle crash?
A

Yes.

Q

Was the cause of her death and the

injuries she suffered the result of that crash?
A

Yes.
MR. STONE [defense counsel]: Objection,

your Honor.
May we approach?

A-26

THE COURT:

All right.

Let me see

counsel at sidebar.
(The following proceedings were held at the
bench out of the hearing of the jury:)
THE COURT: I guess you’ll be doing the
cross?
MR. STONE: I will.
THE COURT: Okay. All right. We’re at
sidebar outside the presence of the jury.
Mr. Stone?
MR. STONE: Your Honor, I don’t believe
that the witness has the – the State has presented a
proper foundation for the witness to deliver that expert
opinion.
THE COURT: She’s a medical doctor,
treating physician.
MR. STONE: She wasn’t the treating

A-27

physician.
MR. BISHOP:

There were multiple

treating physicians.
THE COURT:

Lay some foundation

exactly as to her type of medical expertise and that she
was one of the many treating physicians. Once you lay
that foundation, I’ll overrule the objection, if you can
lay that foundation.
Q

Were there many physicians that

treated her?
A Yes.
Q You, as a hospitalist, treated her. Was
there also a surgeon?
A Correct.
Q Was the cause of Ms. Morand’s death
and the injuries she suffered a result of the motor
vehicle crash that she came to the emergency

A-28

department for?
MR. STONE:

Objection, Your Honor.

Foundation.
THE COURT: Overruled.
A

Yes.

MR. BISHOP:

No further questions, Your

Honor.
THE COURT: Cross-examination, Mr. Stone?
MR. STONE: Thank you, Your Honor.

A-29

Excerpt of Transcript of December 18, 2017, Trial,
pages 338-340
Q

Okay. Is that – is that – is that something

significant?
A

That means that – it can be significant, if

– I mean, if she needed a study that required iodine,
you would have to be careful.
Q

Okay. Now, in terms of that, that evening

she was admitted. And I think you left at about what
time?
A

That evening – from the hospital?

Q

Yes.

A

I – I really don’t remember, because every

night is different.
Q

Okay. But from the moment that she was

brought into the hospital to the moment you left, you
never laid eyes on her?

A-30

A

No, I did not.

Q

Okay. So you don’t know what happened

other than looking at the chart?
A

Right.

And discussion with the other

physicians involved.
Q

Okay. And then the next day when you

came back, you – essentially – well, what you – what
you learned was that she had undergone exploratory
surgery?
A

Yes.

Q

Okay. And that was by Dr. Adkisson?

A

Yes.

Q

Okay. And then after – after Dr. Adkisson

completed the exploratory surgery, he basically dressed
everything back up and she was still alive in the
hospital. Correct?
A

She was alive. Correct.

A-31

Q

Okay. Now, in terms of the – actually

what was done in the surgery, you don’t know
specifically the details of the surgery, do you?
A

The details are written in the chart. He

wrote a nice operative report. So he evacuated a liter of
blood. He put in a –
Q

Well, I’m talking about what you know

specifically.
A

Right. I didn’t look inside her abdomen, if

that’s what you’re asking.
Q

Okay. And, in fact, the surgeon would

actually have to be the one to explain exactly what he
saw when he – when he performed the surgery?
A Right. But he did that in the note, but, yes.
Q

And then the next day when you arrived,

you indicated that – well, she was going in for surgery
again. Correct?

A-32

A

Yes, sir.

Q

And that – and so you were basically –

again, you did not actually lay eyes on Ms. Morand?
A Correct.
Q

At some point while you were there, the

Code Blue went out. Correct?
A

Yes.

Q

That was after the second surgery?

A

Yes.

Q

And was that when there was an effort –

an effort made with CPR?
A

Yes.

Q

All right. And an effort – and she was

resuscitated. Correct?
A

She – she was resuscitated multiple

times, but it was a recurrent event where she could not
maintain her blood pressure.

A-33

Q

Okay. And so there was a discussion

about whether – and I think you indicated that in the
Code Blue, a Dr. Patou (phonetic) took over. Correct?
A

Yes.

Q

And who is Dr. Patou?

A

She’s the surgeon who assisted Dr.

Adkisson in the second surgery.

A-34

Excerpt of Transcript of December 19, 2017, Trial,
pages 537-547
[Defense Counsel, Mitchell Stone]: Your Honor, in
terms of the element of death in this case, which is a –
the element of a DUI manslaughter, the State has the
requirement to prove beyond a reasonable doubt the
cause of death. And that is typically done by calling a
medical examiner who would – who actually performed
an autopsy. In this case, that wasn’t done. In this case
the cause of death was testified to by Dr. Patel. Now,
Dr. Patel was obviously at the scene – at the hospital
when Ms. Morand was admitted. And she testified,
essentially, that Ms. Morand was alert, coherent, and
had a normal heart rate, and later on went into
distress and there was an operation performed. But
that during that entire time, although she was at the
hospital, she never saw Ms. Morand.

A-35

She never

treated her. She was not part of the team of surgeons
or anyone in the room with her when she – when the
surgery was performed. She then went home and the
next day she came back.
THE COURT:

The doctor, the doctor went

home, not Ms. Morand.
MR. STONE:

The doctor. I apologize. Dr.

Patel went home still having spent the entire day or
evening, her entire shift, where Ms. Morand was at the
hospital and she was at the hospital, but never saw
her.

Never went into the room. Has no personal

firsthand knowledge of any treatment or anything that
– that any doctor or any nurse or anybody else may
have had with Ms. Morand. So Dr. Patel went home.
And the next day came back for her shift and when she
got there, a – the – the doctor – and I’m not recalling
the doctor’s name. I want to say Atkins.

A-36

THE COURT: Adkisson.
MR. STONE: Dr. Adkisson was the doctor who
actually performed the surgeries. And then there was
also a Dr. Patou who was present. And there was also
Dr. Margerum, I believe. And they all had something
to do with the treatment. They all had something to do
with the – with what happened at the hospital. But
Dr. Patel did not, she was a hospitalist, as she testified
to. And ultimately, later on, after she had been there
for – and I think she had indicated sometime in the
afternoon when she arrived, Ms. Morand was going in
for surgery number two or was already in for surgery
number two. And then after that surgery, she was out
again and in a recovery room. And it was much later
that a Code Blue went out. And that was the one and
only time that Dr. Patel actually laid eyes on Ms.
Morand. And – she was not part of the resuscitation

A-37

team. I think she indicated that she went – she went
there to see if she could assist in any way. She didn’t
really testify as to anything that she actually did
medically for Ms. Morand or in the resuscitation
efforts. But she talked about the fact that there was
some discussion with the family about – about not
going in for a third surgery and the decision was made
by Dr. Patou not to do that. The problem here is –
THE COURT: That discussion wasn’t with the
family. The discussion was amongst the doctors with
regards to the third surgery, was my recollection.
MR. STONE: Correct, correct. But there was –
I believe she testified that there was some discussion
with the family. Somebody – somebody addressed the
family.
THE COURT: But not about the third surgery,
was my recollection.

A-38

MR. STONE:

Correct. Correct. It was about

the discussion whether they were – and then – the
was on – was on those matters.
However, Dr. Patel, that was the one and only
time she actually had been in the room with Ms.
Morand. I’m not sure exactly what her role was, other
than – other than to just be there to assist in case they
needed another set of hands. Importantly when she
testified, and the State put her on the stand, they
handed her the medical records that Ms. – that Dr.
Patel relied upon, and that’s how she drew her
opinions, that’s how she drew her testimony from, was
essentially what other doctors what other people had
done. And so we run into the difficulty of – of her
ability to declare a cause of death.
And I’m not saying that in her position, because
she signed a death certificate if, in fact, she did, and

A-39

that’s not in evidence, but let’s – for purposes of an
argument, let’s say that she did sign a death certificate
and she did declare Ms. Morand deceased at a
particular time on a particular date, that is something
probably within her capabilities as a doctor at Baptist
South.

However, that is not within her expertise,

knowledge, education, or anything that we heard about
with regard to declaring a cause of death. And I know
that this may seem –
THE COURT: What if somebody showed up at
the hospital with a gunshot wound to their chest, it
went right through their heart, do you think that an
emergency room doctor or a hospitalist can say that
gunshots is what caused their death? And you don’t
need the medical examiner to say that.
MR. STONE:

Possibility. But I think that

under the circumstances it’s not a – it’s not a matter of

A-40

what we think we know, it’s a matter of what the State
actually can prove, and that is why, typically, medical
examiners are called as the – as the – to establish
causation. The medical examiner doesn’t come into
court without the credentialing that is required. A
medical examiner obviously has to have certain
credentials, certain education, certain experience and
certain knowledge in order to make – draw such
opinions. Because at the end of the day, that’s what the
testimony involves. It’s an opinion as to a cause of
death. It could be disputed by experts. It can be agreed
to by experts, but it must be established by legal – by
legal authority to do so. Legal authority to do so means
that the witness is qualified and has the education,
training, and experience, and ability to make the call.
And, in fact, in some cases, this would be – this
would fly in the face of the Sixth Amendment right to

A-41

confront witnesses that was established in Crawford v.
Washington, which is a United States Supreme Court
case at 541 U.S. 36 in 2004. Which basically said that
the right to confront witnesses applies to testimonial
hearsay. Later in Melendez-Diaz versus Massachusetts
at 557 U.S. 305, which is a 2009 U.S. Supreme Court
case, that – ruled that Crawford ruling was expanded
to reports of forensic analysis. And essentially, they
determined that forensic analysis reports would, in
fact, be testimonial hearsay.
And then later on in Bullcoming versus New
Mexico, which, in fact, was a DUI case that made it all
the way to the Supreme Court, 131 Supreme Court
2705, which is 2011.

In that case, interestingly

enough, we have a very similar situation here. And
that’s a United States Supreme Court case where they
reversed the conviction based upon the fact that a

A-42

blood alcohol content that was established through a
toxicology analysis and resulted in a lab report – and
ended up in a lab report. But that was brought in to
court to be done for purposes of establishing someone’s
blood alcohol content.
THE COURT: But doesn’t the Florida Rules of
Evidence, as well as the Federal Rules of Evidence
allow experts to come in and give their opinion based
upon hearsay. As long as they don’t testify to that
hearsay, they can give their opinion based upon
hearsay, what they’ve seen from other experts or what
they’ve seen from – every day it happens with
physicians. I’ve reviewed these records and, in my
opinion, this person’s back was not caused by this car
accident or this person’s death was caused from this
car accident. It happens probably every week in this
courthouse and courthouses all over the state in

A-43

personal injury cases. And the Evidence Code is the
Evidence Code, whether it’s a criminal case or a
personal injury case, that allows for expert opinion
testimony to be based upon review of medical records.
MR. STONE:

I understand, but I think that

this goes – this goes into what I’m referring to here.
Which is in Bullcoming, essentially that – they had
that situation where they brought in a substitute lab
analyst, because the lab analyst who had conducted
the analysis was not available, so they brought in a
substitute lab analyst to testify about the blood alcohol
content that was contained in the lab report. And he
looked at all the reports of the other lab analysts –
THE COURT: I’m familiar with that case and
I’m familiar with the host of cases after that deal with
urine drug tests in the context of violations of
probation that talk about when the witness can testify

A-44

to that hearsay and when they cannot.
But are you familiar or are you aware of any
cases anywhere in the United States where an
appellate court has said that a medical doctor cannot
take the witness stand and opine as to cause of death,
even though they’re not the ones who did an autopsy or
maybe even an autopsy wasn’t done?
MR. STONE: Well, and I’m referring to Rosario
v. State, which is at 175 So. 3d 843, which is a 2015
Fifth DCA case that dealt with cause of death and with
the – with the – ultimately all of these issues. The
testimonial hearsay, the failure to call the medical
examiner conducting the autopsy.
THE COURT: What did that case say?
MR. STONE: Well, that’s what I was reading.
THE COURT:

When you’re talking about a

DUI breath test or blood test, that’s testimonial

A-45

hearsay.
MR. STONE: If I could have one moment, Your
Honor.
THE COURT:

Because there are cases out

there, that I’m aware of, where the medical examiner
who conducted the autopsy, was no longer available.
Either they died or the situation – even up in
Jacksonville, where you-all are located – where the
medical examiner was no longer capable of performing
her job, and other medical examiners came in to testify
to the cause of death in murder cases, based upon their
review of the records.
MR. STONE:

What I would say is that the

Rosario case stands for the fact that it states that an
autopsy report admitted at the defendant’s trial for
aggravated child abuse and first-degree murder, was
testimonial hearsay under the Confrontation Clause,

A-46

such that failure to give the defendant the opportunity
to cross-examine the medical examiner who prepared
the report, violated the defendant’s Sixth Amendment
right to confront witnesses. Even though the report
was not sworn or certified, the report included
out-of-court statements made by the examiner and was
offered by the State to prove the truth of the matter
asserted.
THE COURT: Well, that’s markedly different
from what we have here. We don’t have the State
tendering an autopsy report, saying here’s the report.
We have an expert coming in and giving her opinion as
to the cause of death. An expert who happened to be a
treating physician to some degree.
MR. STONE: And I would certainly disagree
that she was qualified as an expert to declare cause of
death.

A-47

As indicated –
THE COURT: You didn’t object to the opinion
during the course of her testimony. I didn’t hear
anybody object to her rendering the opinion.
MR. STONE: I objected to the foundation of her
– of her testimony. Of her – of her being called for
that purpose. She wasn’t a treating physician. She –
she had no hands-on experience with this – with this
case, other than to review medical records and
ultimately declare the – the death at a certain place in
time. But that did not – that does not, then, extend to
her credentialing or ability to declare a cause of death.
So I would ask that the Court grant a Judgment of
Acquittal as to the element of causing death in the DUI
manslaughter count.
Thank you.
THE COURT: Okay. Thank you. I appreciate

A-48

your arguments, and I understand where you-all are
coming from. However, there’s been clearly a prima
facie case of impairment.
So I will deny the Motion for Judgment of
Acquittal that Mr. Lockett had argued.
And then I do find that Dr. Patel is qualified to
render the opinion that she did with regards to cause
of death, so I’ll deny the Motion for Judgment of
Acquittal.

A-49

